PETITIONER CERTIFICATE OF SERVICE

Michael C Sullivan
Angel Hill Farm
146 Rosedale Rd.
Stumptown, WV 25267
Phone: (304) 354-7529

x

CERTIFICATE OF SERVICE : I hereby certify as Petitioner, Michael C Sullivan, as required by
Supreme Court Rule 29, that a true and exact copy of the foregoing : "Motion for Leave to
Proceed in Forma Pauperis" and "Petiton for Writ of Certiorari", has been duly forwarded to
named below Respondents on Sept. 01,2021, by deposit of same in the U.S. Mail, postage
prepaid to :

To :

United States Federal District Court
Eastern District of Tenn.
220 West Depot Str, Suite 200
Greeneville, Tenn. 37743
Phone: (423) 639-3105

To :

United States 6th Circuit of Appeals
100 East Fifth Street. Room 540
Potter Steward U.S. Courthouse
Cincinnati, Ohio 45202-3988
Phone: (513)564-7016

To :

United States Solicitor General Office
United States Department of Justice
950 Pennsylvania Ave. NW, Rm. 5616
Washington, DC 20530-0001
Phone:(202)514-2000

35

i

